HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in South Dakota,"(A-07-03-04016)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in South Dakota," (A-07-03-04016)
July 28, 2003
Complete
Text of Report is available in PDF format
(1.1 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the South Dakota Department
of Social Services, Office of Recoveries and Fraud Investigations (State Agency)
had established adequate accountability and internal controls over the Medicaid
drug rebate program.  Generally, the State Agency had adequate internal controls
with regard to the Medicaid drug rebate program as required by Federal rules and
regulations.